                                    Report Template Update: 06-30-07




Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





PAYMENTS MADE IN ERROR FOR 

  PERSONAL CARE SERVICES 

DURING INSTITUTIONAL STAYS 





                    Daniel R. Levinson

                     Inspector General 


                      August 2008

                     OEI-07-06-00620

                                                                  Report Template Update: 06-30-07



               Office of Inspector General

                                http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452,
as amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by
others. Audits examine the performance of HHS programs and/or its grantees and
contractors in carrying out their respective responsibilities and are intended to provide
independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency
throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on
significant issues. These evaluations focus on preventing fraud, waste, or abuse and
promoting economy, efficiency, and effectiveness of departmental programs. To promote
impact, OEI reports also present practical recommendations for improving program
operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative
investigations of fraud and misconduct related to HHS programs, operations, and
beneficiaries. With investigators working in all 50 States and the District of Columbia,
OI utilizes its resources by actively coordinating with the Department of Justice and
other Federal, State, and local law enforcement authorities. The investigative efforts of
OI often lead to criminal convictions, administrative sanctions, and/or civil monetary
penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims
Act, program exclusion, and civil monetary penalty cases. In connection with these
cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts,
and provides other guidance to the health care industry concerning the anti-kickback
statute and other OIG enforcement authorities.
                                                                                                              Report Template Update: 06-30-07




ΔD    E X E C U T I V E                                 S U M M A R Y                                              

     E S I G N



                   OBJECTIVE
                   To determine (1) the extent to which five State Medicaid programs
                   made payments in error for personal care services (PCS) during periods
                   of beneficiary institutionalization and (2) what controls these States
                   reported establishing to prevent those payments.


                   BACKGROUND
                   PCS provide the elderly, people with disabilities, and individuals with
                   chronic or temporary conditions with the assistance that they need to
                   remain in their homes or communities. State Medicaid programs may
                   reimburse the cost of PCS for individuals who are not inpatients or
                   residents of certain institutions but should not separately reimburse for
                   personal care services furnished during institutional stays.

                   We reviewed Medicaid PCS and institutional claims and Medicare
                   institutional claims for services provided from October 1 through
                   December 31, 2005, in five States: Minnesota, New Mexico,
                   North Carolina, Texas, and Washington. During the period of our
                   review, these States paid a total of $11.6 million for 29,057 claims for
                   PCS that overlapped with the dates of institutional stays. We compared
                   the dates of service for paid PCS claims with the dates of service for
                   paid Medicaid and Medicare institutional stays to identify Medicaid
                   payments for PCS provided during institutional stays. We also
                   interviewed State Medicaid officials about the reasons the identified
                   claims were paid and their efforts to prevent such payments.


                   FINDINGS
                   In the first quarter of fiscal year 2006, the five States reviewed paid
                   nearly $500,000 in error for personal care services provided during
                   periods of institutionalization. In one quarter, Medicaid programs in
                   the five States paid $243,385 for 1,670 claims for PCS provided on days
                   that Medicaid also paid for institutional care. These claims represented
                   43 percent of the PCS claims paid in error that we identified, using data
                   that were available in the States’ own Medicaid payment systems. The
                   Medicaid programs also paid $251,260 for 2,251 claims for PCS provided
                   on days that Medicare paid for institutional care. State Medicaid
                   officials volunteered that they do not have complete access to the
                   information necessary to prevent payments for PCS provided during
                   institutional stays paid by Medicare.

 OEI-07-06-00620   PAY M E N T S M A D E   IN   ERROR   FOR   P E R S O N A L C A R E S E R V I C E S D U R I N G I N S T I T U T I O N A L S TAY S   i
                                                                                                              Report Template Update: 06-30-07




E X E C U T I V E                     S U          M M A R Y


                   Billing practices in three States create vulnerabilities that could
                   mean that up to $11 million in one quarter may have been paid in
                   error. In one quarter, the Minnesota, Texas, and Washington Medicaid
                   programs paid $11.2 million for 26,929 PCS claims that overlapped with
                   claims for institutional care. We determined that 7 percent of these
                   claims were paid in error. However, because these three State Medicaid
                   programs allowed PCS providers to bill for services using date ranges
                   that included days on which no PCS were provided, we could not
                   determine, using existing claims data, whether the remaining
                   93 percent of the overlapping PCS claims, representing approximately
                   $10.9 million, were paid in error.
                   Although all five States reported having controls to prevent
                   Medicaid payments for personal care services provided during
                   institutional stays, the controls did not prevent all erroneous
                   payments. All five State Medicaid programs had payment system edits
                   and postpayment audits in place that were intended to prevent or
                   recover payments for PCS during institutional stays, but they were not
                   always completely effective. State Medicaid officials identified some
                   reasons the identified claims were paid in error, including payment
                   system edits that were not working properly and case managers’ failure
                   to terminate service authorizations.


                   RECOMMENDATIONS
                   The Medicaid programs in the five States reviewed paid $494,645 in
                   error for 3,921 claims for PCS provided during institutional stays in the
                   first quarter of fiscal year 2006. However, payments made in error for
                   PCS provided during institutional stays could total up to $11.2 million
                   in that quarter in three States that allowed PCS providers to bill using
                   date ranges that included days on which no PCS were provided.

                   Therefore, we recommend that the Centers for Medicare & Medicaid
                   Services (CMS):
                   Enforce existing Federal Medicaid payment policies that prohibit
                   Medicaid reimbursement for personal care services provided over a
                   range of dates if the range includes dates on which the beneficiary
                   was institutionalized. CMS could accomplish this by including claims for
                   PCS billed in date ranges in Medicaid audits and disallowing Federal
                   expenditures for PCS claims that lack supporting documentation.




 OEI-07-06-00620   PAY M E N T S M A D E   IN   ERROR   FOR   P E R S O N A L C A R E S E R V I C E S D U R I N G I N S T I T U T I O N A L S TAY S   ii
                                                                                                                 Report Template Update: 06-30-07




E EX XE EC CU UT TI IV VE E          S SU UM MM MA AR RY Y



                      Work with States to reduce erroneous Medicaid payments for
                      personal care services provided during institutional stays by:
                      •	 exploring ways to ensure that State Medicaid programs have
                         complete information on Medicare institutionalizations for dually
                         eligible beneficiaries to prevent payments for PCS during Medicare-
                         paid institutionalizations (e.g., requiring admission dates on all
                         crossover claims submitted to State Medicaid agencies);
                      •	 disseminating information to State Medicaid agencies regarding the
                         vulnerabilities identified (e.g., payment system edit failures,
                         untimely or inaccurate service authorizations) and the importance
                         of educating PCS providers on policy prohibiting payment for PCS
                         while beneficiaries are institutionalized; and
                      •	 including information regarding the vulnerabilities identified in the
                         technical assistance and support provided to State Medicaid
                         integrity programs by the Medicaid Integrity Group.


                      AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                      RESPONSE
                      CMS concurred with the OIG recommendation to work with States to
                      reduce erroneous Medicaid payments for PCS provided during
                      institutional stays. However, CMS did not concur with the OIG
                      recommendation to prohibit Federal Medicaid reimbursement for PCS
                      claims billed with date ranges that include days on which no PCS were
                      provided. CMS indicated that existing Federal reimbursement policies
                      are sufficient to prohibit such payments when States have effective
                      controls in place. We revised the recommendation to state that CMS
                      should enforce existing Medicaid payment policies.




    OEI-07-06-00620   PAY M E N T S M A D E   IN   ERROR   FOR   P E R S O N A L C A R E S E R V I C E S D U R I N G I N S T I T U T I O N A L S TAY S   iii
                                                                                                                    Report Template Update: 06-30-07




E X E C U T I V E                           S U          M M A R Y
Δ    T A B L E                     O F                 C O N T E N T S                                                  




                   EXECUTIVE SUMMARY .....................................i



                   INTRODUCTION ........................................... 1




                   FINDINGS ................................................. 8 

                              Five States paid nearly $500,000 in error . . . . . . . . . . . . . . . . . . . . 8 


                              Billing practices in three States could mean that up to 

                              $11 million may have been paid in error . . . . . . . . . . . . . . . . . . . . 10 


                              States’ Medicaid controls did not prevent all erroneous

                              payments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11 




                   R E C O M M E N D A T I O N S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13 

                              Agency Comments and Office of Inspector General Response. . . . 14




                   A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15 

                              A:	 Methodology Used To Identify Errors and Calculate Medicaid 

                                  Payments Made in Error for Personal Care Services Provided

                                  During Institutional Stays . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15 


                              B: 	Personal Care Services: Total Beneficiaries, Paid Claims, 

                                  Overlapping Claims, and Claims Paid in Error. . . . . . . . . . . . 20 


                              C: 	Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21 




                   A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24 





 OEI-07-06-00620         PAY M E N T S M A D E   IN   ERROR   FOR   P E R S O N A L C A R E S E R V I C E S D U R I N G I N S T I T U T I O N A L S TAY S   iv
                                                                                                             Report Template Update: 06-30-07




Δ   I N T R O D U C T I O N                                                  



                  OBJECTIVE
                  To determine (1) the extent to which five State Medicaid programs
                  made payments in error for personal care services (PCS) during periods
                  of beneficiary institutionalization and (2) what controls these States
                  reported establishing to prevent those payments.


                  BACKGROUND
                  PCS provide the elderly, people with disabilities, and individuals with
                  chronic or temporary conditions with the assistance that they need to
                  remain in the community. The “State Medicaid Manual” describes PCS
                  as assistance relating to eating, bathing, dressing, toileting,
                  transferring, maintaining continence, personal hygiene, light
                  housework, laundry, meal preparation, transportation, grocery
                  shopping, using the telephone, medication management, and money
                  management.1
                  Section 1905(a)(24) of the Social Security Act allows State Medicaid
                  programs to furnish PCS as an optional benefit under the Medicaid
                  State plan to individuals who are not institutionalized in certain types
                  of facilities.2 The statute specifies that Medicaid-funded PCS must be
                  furnished in a beneficiary’s home or another location specified by the
                  State. In addition, States may furnish PCS as home- or
                  community-based services (HCBS) under a section 1915(c) waiver3 or
                  under the mandatory home health benefit.4 Historically, section 1915(c)
                  waivers have accounted for the majority of Medicaid spending on
                  noninstitutional long term care, followed by State plan PCS and home
                  health services.5 However, the Deficit Reduction Act of 2005 (DRA)
                  allows State Medicaid programs greater flexibility to provide home- and
                  community-based services, including PCS, without first seeking


                     1 The “State Medicaid Manual,” Pub. No. 45, § 4480(C). Available online at
                  http://www.cms.hhs.gov/manuals/downloads/P45_04.zip. Accessed on January 16, 2008.
                     2 Coverage of PCS is optional except when such services are medically necessary to
                  correct or ameliorate medical problems found as a result of an Early and Periodic
                  Screening, Diagnostic, and Treatment (EPSDT) screening. Under section 1905(r)(5) of the
                  Social Security Act, PCS are mandatory when medically necessary under EPSDT.
                     3 Social Security Act § 1915(c); 42 CFR § 440.180.

                     4 Social Security Act § 1905(a)(7); 42 CFR § 440.70. 

                     5 “Medicaid 1915(c) Home and Community-Based Service Programs: Data Update,” 

                  Kaiser Commission on Medicaid and the Uninsured. December 2006, p. 4. Available online
                  at http://www.kff.org/medicaid/upload/7575.pdf. Accessed on April 1, 2008.



OEI-07-06-00620   PAY M E N T S M A D E   IN   ERROR   FOR   P E R S O N A L C A R E S E R V I C E S D U R I N G I N S T I T U T I O N A L S TAY S   1
                                                                                                               Report Template Update: 06-30-07




I N T R O D        U C T           I O N


                    approval for a Medicaid waiver. The Congressional Budget Office
                    projects that, “By 2015, we expect that states with about one-quarter of
                    enrollees would use [the DRA] authority to provide additional services
                    to about 120,000 enrollees.”6 The option is projected to increase Federal
                    costs by $766 million over the 2006–2010 period and $2.6 billion over
                    the 2006–2015 period.7
                    State Medicaid programs are providing PCS and other HCBS to an
                    ever-increasing number of Medicaid beneficiaries in efforts to contain
                    increasing Medicaid spending, limit beneficiary institutionalization, and
                    reduce long term care expenditures. Medicaid is jointly funded by the
                    State and Federal Governments. Total combined State and Federal
                    Medicaid expenditures for PCS alone reached $9.4 billion in 2005, an
                    increase of 56 percent over 3 years.8 Patterns in Medicaid long term
                    care spending in recent years show that expenditures for personal care
                    and home health services are increasing at a greater rate than
                    expenditures for institutional long term care services. 9 In fiscal year
                    (FY) 2006, spending for personal care and home health services
                    accounted for 40 percent of total Medicaid expenditures for long term
                    care nationally and exceeded expenditures for any type of long term
                    institutional care in 18 States.10 The rising Medicaid costs associated
                    with home- and community-based services, including PCS, make it
                    important to ensure that all payments for PCS are appropriate.



                       6 Letter to the Honorable Joe Barton regarding Medicaid provisions in S. 1932, the
                    Deficit Reduction Act of 2005. Congressional Budget Office, January 31, 2006.
                    Available online at: http://www.cbo.gov/ftpdocs/70xx/doc7033/s1932medic.pdf. Accessed on
                    April 16, 2008.
                      7 Congressional Budget Office Cost Estimate, S. 1932, Deficit Reduction Act of 2005.
                    January 27, 2006. Available online at:
                    http://www.cbo.gov/ftpdocs/70xx/doc7028/s1932conf.pdf. Accessed on April 16, 2008.
                      8 Centers for Medicare & Medicaid Services (CMS) Form CMS–64 summary data for
                    2002 and 2005. This was the most recent CMS–64 data available at the time of this report.
                       9 Kaiser Commission on Medicaid and the Uninsured. “Understanding the Recent
                    Changes in Medicaid Spending and Enrollment Growth Between 2000–2004.” May 2006,
                    p. 7. Available online at http://www.kff.org/medicaid/upload/7499.pdf. Accessed on
                    April 2, 2008. Office of Inspector General (OIG) analysis of data contained in this document
                    supports this conclusion. These data were the most recent research data available at the
                    time of this report.
                       10 Other types of long term care services include services provided in a nursing facility,
                    an intermediate care facility for persons with mental retardation, or a psychiatric
                    institution. State Health Facts, “Distribution of Medicaid Spending on Long Term Care,
                    FY 2006.” Available online at http://www.statehealthfacts.org/. Accessed on January 16,
                    2008.



 OEI-07-06-00620    PAY M E N T S M A D E   IN   ERROR   FOR   P E R S O N A L C A R E S E R V I C E S D U R I N G I N S T I T U T I O N A L S TAY S   2
                                                                                                               Report Template Update: 06-30-07




I N T R O D        U C T           I O N


                    Medicaid Should Not Pay for Personal Care Services While the Recipient is
                    an Inpatient or a Resident of an Institution
                    Under the Medicaid statute and regulations, State Medicaid programs
                    should not separately reimburse for PCS provided to inpatients or
                    residents of a hospital, a nursing facility, an intermediate care facility
                    for the mentally retarded (ICF/MR), or an institution for mental
                    diseases (IMD), hereinafter referred to as institutions.11 Medicaid
                    regulations also prohibit furnishing PCS under the home health benefit
                    or under an HCBS waiver program to inpatients of a hospital, a nursing
                    facility, or an ICF/MR.12 The Medicaid programs in each of the five
                    States included in this review allowed payments for PCS on the date of
                    admission to an institution and, with the exception of Texas, the
                    Medicaid programs in these States also allowed payments for PCS on
                    the date of discharge from an institution. Payments for PCS on the
                    dates of admission and discharge can be appropriate because the
                    beneficiaries may have been at home for part of these days.13
                    Recent Office of Inspector General Work
                    In a 2006 report, OIG determined that little national information
                    existed regarding the overall delivery of and reimbursement for
                    Medicaid PCS.14 The lack of this information could increase Medicaid’s
                    vulnerability to claims and payments made in error for PCS during
                    periods of institutionalization.


                    METHODOLOGY
                    We selected five States for this review: Minnesota, New Mexico,
                    North Carolina, Texas, and Washington. We selected these States
                    because they were in the top 25 percent of States in terms of national
                    expenditures for Medicaid PCS in FY 2004.15 These five States
                    represented 17 percent of total national Medicaid expenditures for PCS


                       11 Social Security Act § 1905(a)(24); 42 CFR § 440.167. 

                       12 42 CFR § 441.301(b)(1)(ii); 42 CFR § 440.70(c). 

                       13 A State Medicaid Director Letter dated July 25, 2000, allows State Medicaid programs 

                    to make payments to PCS providers, under a home- and community-based services waiver,
                    to allow beneficiaries to retain their caregivers for up to 30 days during institutional stays.
                    Of the five States included in this review, only Minnesota allowed this type of payment for a
                    small number of ventilator-dependent beneficiaries. We did not identify any beneficiaries
                    receiving this type of payment in our claims analysis.
                       14 “States’ Requirements for Medicaid PCS Attendants.” OEI-07-05-00250.
                       15 CMS–64 summary data for 2004. These were the most recent CMS–64 data available
                    at the start of our review.



 OEI-07-06-00620    PAY M E N T S M A D E   IN   ERROR   FOR   P E R S O N A L C A R E S E R V I C E S D U R I N G I N S T I T U T I O N A L S TAY S   3
                                                                                                               Report Template Update: 06-30-07




I N T R O D        U C T           I O N


                    alone in FY 2004, and personal care and home health services
                    constituted at least 40 percent of Medicaid long term care spending in
                    each of these States in FY 2004.16
                    All claims for Medicaid PCS that we examined in the five selected
                    States were paid on a fee-for-service basis during the review period.
                    Each of the five State Medicaid programs allowed PCS providers to bill
                    Medicaid using date ranges rather than specific dates. North Carolina
                    and New Mexico required that PCS be provided on every day in the date
                    ranges billed. In Washington, Minnesota, and Texas, the date ranges
                    represented billing periods, rather than actual dates of service;
                    beneficiaries may not have received PCS on every day included in the
                    date ranges.
                    Data Used in Analysis
                    From the five selected States, we obtained the following Medicaid data
                    for the period October 1 through December 31, 2005:
                    •	 eligibility data for all beneficiaries enrolled in Medicaid,

                    •	 paid and denied Medicaid claims data for all PCS provided to
                       eligible beneficiaries, and
                    •	 paid Medicaid claims data for all services provided in institutions.

                    To ensure that we identified all Medicaid- and Medicare-paid
                    institutional stays for Medicaid recipients for whom PCS were claimed,
                    we also obtained Medicare paid claims data from the National Claims
                    History File. These claims represented all Medicare-paid institutional
                    stays for Medicaid beneficiaries who received PCS from October 1
                    through December 31, 2005. To obtain this information, we matched
                    the Social Security numbers contained in State Medicaid eligibility data
                    with Social Security numbers contained in the CMS Enrollment
                    Database to obtain Medicare Health Insurance Claims Numbers. We
                    then used the Health Insurance Claims Numbers to identify Medicare
                    claims for these beneficiaries.
                    Identifying Overlapping Personal Care Services and Institutional Dates of
                    Service
                    Using the Medicaid data obtained from each of the five States, we
                    matched the beneficiary identifiers and service dates on the Medicaid


                      16 State Health Facts, “Distribution of Medicaid Spending on Long Term Care, FY 2006.”
                    Available online at http://www.statehealthfacts.org/. Accessed on January 16, 2008.



 OEI-07-06-00620    PAY M E N T S M A D E   IN   ERROR   FOR   P E R S O N A L C A R E S E R V I C E S D U R I N G I N S T I T U T I O N A L S TAY S   4
                                                                                                               Report Template Update: 06-30-07




I N T R O D        U C T           I O N


                    PCS claims against the beneficiary identifiers and service dates on
                    the paid Medicaid institutional claims to identify overlapping dates of
                    service. We then matched the beneficiary identifiers and service
                    dates for all PCS claims against the beneficiary identifiers and service
                    dates for paid Medicare institutional claims to identify overlapping
                    service dates. Our matching program reflected State PCS payment
                    policies as identified through discussions with State officials and
                    documentation obtained. The identified claims described above will
                    hereinafter be referred to as overlapping claims.

                    For analysis purposes, we combined multiple institutional stays with
                    the same or consecutive admission and discharge dates into a single
                    date range. For example, if a beneficiary was admitted to an
                    institution on October 1 and discharged on October 7 and admitted to
                    another institution on October 7 and discharged on October 10, we
                    combined those two stays into one stay, lasting from October 1
                    through October 10. States’ payment systems, which are based on
                    their payment policies, may have allowed payment for PCS on
                    October 7 because that was a discharge date for one stay and an
                    admission date for the other stay. However, we considered October 7
                    from this example as part of an overlapping claim because the
                    beneficiary was likely discharged from one institution and
                    immediately admitted to another. The beneficiary likely would not
                    have returned home on October 7, making payment for PCS
                    inappropriate. For the first and last days of consecutive stays
                    combined into single date ranges and all nonconsecutive stays, we
                    applied the individual payment policies of the reviewed States to
                    determine the accuracy of PCS payments on admission and discharge
                    dates.
                    Determining Payment Errors for Overlapping Personal Care Services and
                    Institutional Dates of Service
                    Medicaid Matches. The methodology used to identify PCS claims paid in
                    error in each of the five States varied.
                    North Carolina and New Mexico—Because PCS providers in these two
                    States had to provide care on every day within a PCS date range billed,
                    any overlapping claim was an error (see Appendix A, Figure 1). State
                    Medicaid officials confirmed that all of the PCS claims we identified
                    were paid in error.
                    Minnesota, Texas, and Washington—Because PCS providers in these
                    three States were allowed to bill using date ranges that included days

 OEI-07-06-00620    PAY M E N T S M A D E   IN   ERROR   FOR   P E R S O N A L C A R E S E R V I C E S D U R I N G I N S T I T U T I O N A L S TAY S   5
                                                                                                               Report Template Update: 06-30-07




I N T R O D        U C T           I O N


                    on which no PCS were provided, we were unable to determine which of
                    the overlapping claims were paid in error without further review (see
                    Appendix A, Figure 2). For the Minnesota claims, we reviewed PCS
                    attendants’ timecards to identify errors for the PCS claims that fell
                    during Medicaid-paid institutional stays (see Appendix A, Figure 3);17
                    for the Texas and Washington claims, we performed further analysis on
                    the dates and PCS units billed. We identified claims paid in error in
                    these States by identifying instances in which beneficiaries were
                    institutionalized for the entire PCS date ranges billed or the hours of
                    PCS billed exceeded 24 hours of care per day. These methods are
                    described in more detail in Appendix A.
                    If the PCS dates of service matched the dates of service for both
                    Medicaid- and Medicare-paid institutional claims, we counted the PCS
                    claim as a Medicaid match because the information needed to identify
                    and prevent the overlapping dates was available in the State’s own
                    Medicaid payment systems.

                    Medicare Matches. Under the provisions of the Computer Matching and
                    Privacy Protection Act of 1988, we were prohibited from providing State
                    Medicaid officials with information regarding the PCS claims that we
                    identified for services provided during Medicare institutional stays.18
                    Therefore, we used the same methodology utilized in Texas and
                    Washington to identify PCS payments made in error for claims that
                    overlapped with Medicare-paid institutional stays in all five States
                    (see Appendix A).

                    Payment Calculations. We calculated the total amount (i.e., State and
                    Federal shares) of Medicaid payments made in error for PCS provided
                    during institutional stays. The methodologies by which the claims were
                    identified necessitated different methods for determining payments
                    made in error. Further details on how payments for PCS provided



                       17 Minnesota Medicaid officials provided timecards for 35 of the 41 PCS claims that
                    overlapped with Medicaid-paid institutional stays.
                       18 The Computer Matching and Privacy Protection Act of 1988 (P.L. No. 100-503),
                    amended by P.L. No. 101-508 (1990), established procedural safeguards and due process
                    rights related to agencies’ use of Privacy Act records in performing certain types of
                    computerized matching programs. Because our evaluation did not undertake computerized
                    matching to take action on individual claims or deny individual claims or recover payments
                    to individual providers, we were not required to follow the procedures specified by the Act
                    for those purposes and may not forward the results to the States to be used for those
                    purposes. 5 U.S.C. § 552a(a)(8)(B).



 OEI-07-06-00620    PAY M E N T S M A D E   IN   ERROR   FOR   P E R S O N A L C A R E S E R V I C E S D U R I N G I N S T I T U T I O N A L S TAY S   6
                                                                                                               Report Template Update: 06-30-07




I N T R O D        U C T           I O N


                    during institutional stays were calculated in each State appear in
                    Appendix A.

                    Causes of Errors. We consulted Medicaid State agency staff in each of
                    the five States to discuss controls established to prevent payments for
                    PCS during institutional stays, the payment errors identified, and
                    possible reasons those payments were made in error. We also discussed
                    the methods used by the State officials to identify periods of beneficiary
                    institutionalization and to detect and deny Medicaid claims for PCS
                    during periods of institutionalization.
                    Standards
                    This study was conducted in accordance with the “Quality Standards for
                    Inspections” issued by the President’s Council on Integrity and
                    Efficiency and the Executive Council on Integrity and Efficiency.




 OEI-07-06-00620    PAY M E N T S M A D E   IN   ERROR   FOR   P E R S O N A L C A R E S E R V I C E S D U R I N G I N S T I T U T I O N A L S TAY S   7
                                                                                                                      Report Template Update: 06-30-07




 Δ       F I N D I N G S 


                                                                 The five States that we reviewed
   In the first quarter of fiscal year 2006, the five            paid $11.6 million for 29,057 claims
States reviewed paid nearly $500,000 in error for                for PCS that overlapped with the
 personal care services provided during periods                  dates of institutional stays in the
                              of institutionalization            first quarter of FY 2006. Of these,
                                                                 3,921 claims (13.5 percent) were
                           paid in error, totaling $494,645 (4.3 percent).19 Table 1 provides an
                           overview of total overlapping PCS claims and PCS claims paid in error
                           in each State.20 Appendix B contains further details on the number of
                           beneficiaries and PCS claims in each State, overlapping claims
                           identified, and the claims paid in error.

           Table 1: Overlapping Claims and Claims Paid in Error, From October 1 Through
           December 31, 2005

                                  Overlapping Claims                                              PCS Claims Paid in Error
                                 Number of Expenditures                                Number of Percentage Expenditures Percentage of
                                   Claims     for Claims                                 Claims    of Claims   for Claims Expenditures
           Minnesota                  120      $117,974                                      34       28.3%        $6,504        5.5%
           New Mexico                 552      $303,669                                     451       81.7%     $124,134        40.9%
           North Carolina           1,576      $146,148                                   1,576      100.0%     $131,521        90.0%
           Texas                   23,773    $8,132,839                                   1,634        6.9%     $171,917         2.1%
           Washington               3,036    $2,901,640                                     226        7.4%      $60,569         2.1%
            Total                  29,057 $11,602,270                                     3,921       13.5%     $494,645         4.3%
           S ource: OIG analysis of claims data, 2008.



                           The billing practices of New Mexico and North Carolina enabled us to
                           determine, using only claims data, which of the PCS claims that fell
                           during Medicaid-paid institutional stays were paid in error. Our
                           inability to provide State Medicaid officials with information regarding
                           the PCS claims that fell during Medicare-paid institutional stays and
                           the billing practices of the other three States required us to perform
                           additional analysis to identify claims paid in error.21 However, this

                              19 All expenditures represent combined State and Federal shares.
                              20 Each PCS claim represents services provided during a range of days, and payment for
                           PCS could have been appropriate on some of those days. The expenditures in error
                           represent only payments for the services provided on days within each range on which the
                           beneficiary was in an institution.
                              21 All of the North Carolina Medicaid PCS claims that overlapped with Medicare-paid
                           institutional stays had date ranges that either fell within the institutional stays or had
                           more than 24 hours of services per noninstitutional day; hence, North Carolina’s error rate
                           in Table 1 is 100 percent. The other four States had some PCS claims that overlapped with
                           Medicare-paid institutional stays that did not meet these criteria.



     OEI-07-06-00620       PAY M E N T S M A D E   IN   ERROR   FOR   P E R S O N A L C A R E S E R V I C E S D U R I N G I N S T I T U T I O N A L S TAY S   8
                                                                                                                         Report Template Update: 06-30-07


F   I N D I N G           S            





                              additional analysis could not identify every claim paid in error.
                              Therefore, the error rates may be understated. We discuss the impact
                              of States’ billing practices on our analysis and the error rates identified
                              in the next finding.
                              State Medicaid programs paid $243,385 for personal care services provided
                              during Medicaid-paid institutional stays
                              In one quarter, Medicaid programs in the five States paid
                              1,670 Medicaid PCS claims, totaling $243,385, for services provided on
                              days on which Medicaid also paid for institutional care. The Medicaid
                              matches represent 43 percent of the claims identified as paid in error as
                              shown in Figure 1. The claims were identified using data that were
                              available in the States’ own Medicaid payment systems.
                              State Medicaid programs paid $251,260 for personal care services provided
                              during Medicare-paid institutional stays
                              For the overlapping PCS claims that matched Medicare institutional
                              stays, we identified instances in which beneficiaries were
                              institutionalized for the entire PCS date ranges billed or in which the
                              hours of PCS billed exceeded 24 hours of care per day for days on which
                              the beneficiaries were not institutionalized. We identified 2,251 PCS
                              claims, totaling $251,260, that met these conditions. As described in

                      Figure 1: Percentage of PCS Claims Paid in Error by Institutional Payor,
                                    From October 1 Through December 31, 2005


                 Total


          Minnesota
                                                                                                                                                  Institutional Payor
        New Mexico
                                                                                                                                                     Medicaid matches
                                                                                                                                                     Medicare matches
      North Carolina


               Texas


         Washington


                         0%                20%                 40%                     60%                    80%                    100%

     Source: OIG analysis of claims data, 2008.


    OEI-07-06-00620           PAY M E N T S M A D E   IN   ERROR   FOR   P E R S O N A L C A R E S E R V I C E S D U R I N G I N S T I T U T I O N A L S TAY S     9
                                                                                                                 Report Template Update: 06-30-07




F   I N D I N G        S


                      the methodology, this analysis did not enable us to identify all of the
                      claims paid in error, so the error rate is likely higher than indicated.
                      The Medicare matches represent 57 percent of the claims identified as
                      paid in error. As previously noted, if a PCS claim matched the dates of
                      both Medicaid- and Medicare-paid institutional stays, we counted it as a
                      Medicaid match.

                      State Medicaid officials in three States volunteered that the lack of
                      access to or incompleteness of Medicare institutional claims data
                      available to them prevents them from identifying Medicaid payments
                      for PCS during Medicare-paid institutional stays. The only Medicare
                      information that State Medicaid officials reported receiving consistently
                      was crossover claims.22 Medicaid officials in one State volunteered that
                      the absence of institutional admission dates on crossover claims
                      prevented them from using those claims to identify overlapping
                      payments.

                      We analyzed overlapping Medicaid and Medicare payments to identify
                      any patterns in provider types or institutional settings within and
                      among the five States. We identified no patterns based on specific
                      provider types or procedure codes.


                                                               In the first quarter of
            Billing practices in three States create           FY 2006, Minnesota, Texas, and
         vulnerabilities that could mean that up to            Washington paid $11.2 million
    $11 million in one quarter may have been paid              for 26,929 PCS claims that
                                             in error          overlapped with Medicaid- and
                                                               Medicare-paid institutional
                      stays. Because these three State Medicaid programs allow PCS
                      providers to bill using date ranges that can include days on which no
                      PCS were provided, existing claims data do not provide the information
                      necessary to ensure that the overlapping claims are not paid in error.
                      For example, a beneficiary was institutionalized from October 1 through
                      October 7, and PCS were billed for the date range October 3 through
                      October 9. In this scenario, we were unable to determine whether the
                      PCS were provided between October 3 and October 6, when the




                        22 Crossover claims are claims for dually eligible beneficiaries sent to Medicaid for
                      payment of the coinsurance and/or deductible on institutional services paid by Medicare.



    OEI-07-06-00620   PAY M E N T S M A D E   IN   ERROR   FOR   P E R S O N A L C A R E S E R V I C E S D U R I N G I N S T I T U T I O N A L S TAY S   10
                                                                                                                      Report Template Update: 06-30-07




     F   I N D I N G        S


                           beneficiary was institutionalized, or between October 7 and
                           October 9, when the beneficiary was at home.

                           In the three States, we could not determine whether claims for PCS
                           were paid in error unless (1) beneficiaries were institutionalized for the
                           entire PCS date ranges billed, (2) the hours of PCS billed exceeded
                           24 hours of care per day for days on which the beneficiaries were not
                           institutionalized, or (3) we had access to timecards. Through our
                           analysis, we determined that 1,894 (7 percent) of the overlapping claims
                           in these three States were paid in error. However, using claims data
                           alone, we were unable to determine whether the remaining 93 percent
                           of the overlapping PCS claims, representing $10.9 million, were
                           provided during institutional stays. Therefore, the remaining
                           25,035 claims are at risk of being paid in error because States lack the
                           information necessary to determine whether the claims were
                           appropriate.


                                                              All five State Medicaid programs had
        Although all five States reported having
                                                              payment system edits and postpayment
     controls to prevent Medicaid payments for                audits in place that were intended to
         personal care services provided during               prevent or recover payments for PCS
institutional stays, the controls did not prevent             during institutional stays, but they
                         all erroneous payments               were not completely effective. For
                                                              example, Minnesota, North Carolina,
                           and New Mexico had edits in place that disallowed payment of PCS on
                           days when the beneficiary was institutionalized. Texas and Minnesota
                           had edits in place that were designed to prevent authorizations for PCS
                           and inpatient services from being entered for the same date. In
                           Washington, case managers were required to create service
                           authorizations for beneficiaries eligible to receive PCS, designating
                           what services were payable on what dates. To stop the beneficiary from
                           receiving PCS before the end of the service authorization period
                           (i.e., because of the beneficiary’s institutionalization), the authorization
                           had to be manually terminated by the case manager. Additionally,
                           Washington had instituted random postpayment audits comparing the
                           hours billed to the hours recorded on PCS providers’ timesheets and
                           contracted with local Area Agencies on Aging to monitor PCS provider
                           timesheets.

                           However, as evidenced by the claims identified in our analysis, these
                           edits and audits were not completely effective. For example, in

         OEI-07-06-00620   PAY M E N T S M A D E   IN   ERROR   FOR   P E R S O N A L C A R E S E R V I C E S D U R I N G I N S T I T U T I O N A L S TAY S   11
                                                                                                                 Report Template Update: 06-30-07




F   I N D I N G        S


                      North Carolina and New Mexico, payment system edits were not
                      working properly during the timeframe of our review and allowed
                      payments for PCS provided during institutionalizations.23 Minnesota
                      had a payment edit in place to prevent payments for certain services
                      during institutionalization, but it did not work for PCS claims because
                      providers were allowed to bill using date ranges. Minnesota officials
                      noted that, prior to our review, they were already implementing
                      changes requiring providers to submit claims with exact dates of service
                      to ensure that the payment edit would work in the future. Minnesota
                      also planned to increase provider education on this issue, create clear
                      documentation on payment guidelines, and implement an annual data
                      check for PCS provided during institutional stays to recoup any
                      payments made in error. In Washington, many of the overlapping
                      claims were paid because case managers failed to close the service
                      authorization when the beneficiary was institutionalized.




                         23 In New Mexico, the malfunctioning edit was discovered and corrected early in 2006.
                      In North Carolina, the malfunctioning edit was discovered and corrected in June 2007.
                      Because these corrections were made after our review period, we cannot make any
                      determination regarding their efficacy.



    OEI-07-06-00620   PAY M E N T S M A D E   IN   ERROR   FOR   P E R S O N A L C A R E S E R V I C E S D U R I N G I N S T I T U T I O N A L S TAY S   12
                                                                                                             Report Template Update: 06-30-07




Δ      R E C O M M E N D A T I O N S                                                                         





                  In the five States reviewed, we identified 3,921 claims, totaling
                  $494,645, paid in error for PCS provided during institutional stays
                  during one quarter. We also identified billing practices in Minnesota,
                  Texas, and Washington that could mean that up to $11 million may
                  have been paid in error during the quarter. Because these three States
                  allowed PCS providers to bill using date ranges that include days on
                  which no PCS were provided, available claims data did not enable us to
                  identify all payments made in error. For all five States, Medicaid
                  officials lacked access to Medicare institutional claims data needed to
                  identify PCS claims paid in error during Medicare-paid institutional
                  stays. However, Medicaid matches represent 43 percent of the PCS
                  claims paid in error and were identified using information contained in
                  the States’ own Medicaid payment systems. Finally, although all five
                  State Medicaid programs had system edits in place and conducted
                  postpayment audits, no program was able to prevent all erroneous
                  payments for PCS provided during institutional stays.

                  Therefore, we recommend that CMS:
                  Enforce Existing Federal Medicaid Payment Policies That Prohibit Medicaid
                  Reimbursement for Personal Care Services Provided Over a Range of Dates
                  if the Range Includes Dates on Which the Beneficiary was Institutionalized
                  CMS could accomplish this by including claims for PCS billed in date
                  ranges in Medicaid audits, and disallowing Federal expenditures for
                  PCS claims that lack supporting documentation.
                  Work With States To Reduce Erroneous Medicaid Payments for Personal
                  Care Services Provided During Institutional Stays by:
                  •	 exploring ways to ensure that State Medicaid programs have
                     complete information on Medicare institutionalizations for dually
                     eligible beneficiaries to prevent payments for PCS during
                     Medicare-paid institutionalizations (e.g., requiring admission dates
                     on all crossover claims submitted to State Medicaid agencies);
                  •	 disseminating information to State Medicaid agencies regarding the
                     vulnerabilities identified (e.g., payment system edit failures,
                     untimely or inaccurate service authorizations) and the importance
                     of educating PCS providers on policy prohibiting payment for PCS
                     while beneficiaries are institutionalized; and




OEI-07-06-00620   PAY M E N T S M A D E   IN   ERROR   FOR   P E R S O N A L C A R E S E R V I C E S D U R I N G I N S T I T U T I O N A L S TAY S   13
                                                                                                                    Report Template Update: 06-30-07




R   E C O        M M E N D A T                          I O N              S


                         • including information regarding the vulnerabilities identified in the
                            technical assistance and support provided to State Medicaid
                            integrity programs by the Medicaid Integrity Group.


                      For this evaluation, we performed a computerized comparison of claims data
                      for the purpose of examining State Medicaid payments. Under the provisions
                      of the Computer Matching and Privacy Protection Act of 1988, we cannot
                      forward the results to CMS or the States for purposes of denying individual
                      claims or recovering payments to individual providers.



                         AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                         RESPONSE
                         CMS concurred with the OIG recommendation to work with States to
                         reduce erroneous Medicaid payments for PCS provided during
                         institutional stays. CMS stated that Medicare should advise State
                         Medicaid agencies of institutional stays for dually eligible beneficiaries
                         and that the Medicaid Integrity Group would integrate the
                         vulnerabilities identified in this report into its inspection criteria. CMS
                         concurred with our recommendation to disseminate information to State
                         Medicaid agencies regarding the vulnerabilities we identified. To better
                         respond to one of the recommendations, CMS requested that OIG
                         provide details surrounding why automated prepayment and
                         postpayment system edits failed to prevent PCS payments made in
                         error. We did not evaluate States’ automated systems edits or the
                         reasons edits failed, so we are unable to provide any further details
                         regarding why edits did not prevent erroneous PCS payments.

                         However, CMS did not concur with the OIG recommendation to prohibit
                         Federal Medicaid reimbursement for PCS claims billed with date ranges
                         that include days on which no PCS were provided. CMS indicated that
                         existing Federal reimbursement policies are sufficient to prohibit such
                         payments when States have effective controls in place. We revised the
                         recommendation to state that CMS should enforce existing Medicaid
                         payment policies.

                         Finally, CMS indicated that any publicly released statements about the
                         report should emphasize that the study was conducted in only five
                         States and cannot be extrapolated nationally to other States or beyond
                         the period covered by the evaluation. The full text of CMS’s comments
                         can be found in Appendix C.

    OEI-07-06-00620      PAY M E N T S M A D E   IN   ERROR   FOR   P E R S O N A L C A R E S E R V I C E S D U R I N G I N S T I T U T I O N A L S TAY S   14
                                                                                                             Report Template Update: 06-30-07




Δ   A P P E N D I X ~ A                                       


                  Methodology Used To Identify Errors and Calculate Medicaid
                  Payments Made in Error for Personal Care Services Provided
                  During Institutional Stays

                  Medicaid Matches
                  The methods used to identify personal care services (PCS) claims paid
                  in error for PCS provided during Medicaid-paid institutional stays are
                  described below and illustrated in Figures 1–5 on page 19.

                  North Carolina and New Mexico. Because the New Mexico and North
                  Carolina Medicaid programs allowed PCS providers to include only days
                  on which PCS were actually provided in their date ranges, our analysis
                  and State confirmation were sufficient to identify the payments made in
                  error for PCS provided during Medicaid-paid institutional stays. As the
                  example in Figure 1 illustrates, in North Carolina and New Mexico,
                  because at least one service was provided on every day in the PCS date
                  range, we know that the services provided on the overlapping days were
                  paid in error.

                  Minnesota. The Minnesota Medicaid program allowed PCS providers to
                  bill using date ranges that represented billing periods rather than
                  actual dates of services; beneficiaries may not have received PCS on
                  every day included in the date ranges. As Figure 2 illustrates, we were
                  unable to determine using only claims data whether the PCS were
                  provided between October 1 and October 4, when the beneficiary was at
                  home, or between October 5 and October 7, when the beneficiary was
                  institutionalized.

                  For Minnesota, we reviewed PCS attendants’ timecards for 35 of the
                  41 PCS claims that fell during Medicaid-paid institutional stays to
                  identify the days on which PCS were provided. By reviewing the
                  timecards, we determined on which days PCS were actually provided
                  during the date ranges billed. If PCS were provided on any day on
                  which the beneficiary also received institutional services, we considered
                  the PCS payment to be in error. As the example in Figure 3 illustrates,
                  a beneficiary has a PCS claim with the date range from October 2
                  through October 8 and an institutional stay from October 4 through
                  October 10. The timecard for his personal care attendant for October 2
                  through October 8 shows that services were provided on October 5 and
                  October 6. Because those days are within his institutional stay, the
                  payments for them were made in error.

                  Texas and Washington. The Texas and Washington Medicaid programs
                  also allowed PCS providers to bill using date ranges that represented

OEI-07-06-00620   PAY M E N T S M A D E   IN   ERROR   FOR   P E R S O N A L C A R E S E R V I C E S D U R I N G I N S T I T U T I O N A L S TAY S   15
                                                                                                                 Report Template Update: 06-30-07




A   P   P E N D       I X          ~               A


                      billing periods rather than actual dates of services; beneficiaries may
                      not have received PCS on every day included in the date ranges. As
                      Figure 2 on page 19 illustrates, in these two States, we were unable to
                      determine using only claims data, whether PCS were provided between
                      October 1 and October 4, when the beneficiary was at home, or between
                      October 5 and October 7, when the beneficiary was institutionalized.
                      Additionally, Texas and Washington Medicaid officials were unable to
                      review the claims identified or to provide timecards for our review
                      because of the large volume of overlapping claims. Therefore, we used
                      the following methodologies to identify claims paid in error in these
                      States:
                      (1) beneficiaries were institutionalized for the entire PCS date ranges
                          billed (see Figure 4) or

                      (2) the hours of PCS billed would exceed 24 hours of care per day for
                          days on which the beneficiary was not institutionalized. If the hours
                          provided would exceed 24 hours of care per day while the beneficiary
                          was not institutionalized, any hours in excess of 24 would have to
                          have been provided while the beneficiary was institutionalized
                          (see Figure 5).

                      We consulted with Medicaid officials in these two States, who confirmed
                      the validity of this analysis. However, this analysis could not identify
                      all the claims paid in error.
                      Medicare Matches
                      The Computer Matching and Privacy Protection Act of 1988 prevented
                      us from providing State Medicaid officials with information regarding
                      the PCS claims that we identified for services provided during
                      Medicare-paid institutional stays.24 Therefore, we used the
                      methodology illustrated in Figures 4 and 5 to identify PCS payments
                      made in error for claims that overlapped with Medicare-paid
                      institutional stays in all five States.



                         24 The Computer Matching and Privacy Protection Act of 1988 (P.L. No. 100-503),
                      amended by P.L. No. 101-508 (1990), established procedural safeguards and due process
                      rights related to agencies’ use of Privacy Act records in performing certain types of
                      computerized matching programs. Because our evaluation did not undertake computerized
                      matching to take action on individual claims or deny individual claims or recover payments
                      to individual providers, we were not required to follow the procedures specified by the Act
                      for those purposes and may not forward the results to the States to be used for those
                      purposes. 5 U.S.C. § 552a(a)(8)(B).



    OEI-07-06-00620   PAY M E N T S M A D E   IN   ERROR   FOR   P E R S O N A L C A R E S E R V I C E S D U R I N G I N S T I T U T I O N A L S TAY S   16
                                                                                                                 Report Template Update: 06-30-07




A   P   P E N D       I X          ~               A


                      Entire PCS date range falls within institutional stay. This test identified
                      PCS claims with date ranges that were entirely within one or more
                      institutional stays. As the example illustrated in Figure 4 shows, a
                      beneficiary had a PCS claim with the date range of October 2 through
                      October 8 and an institutional stay from October 1 through October 10.
                      The date range of his PCS claim is entirely within the dates of his
                      institutional stay, and therefore he was never at home to receive PCS on
                      any of the days within the date range.

                      More than 24 hours of PCS were billed per noninstitutionalized day. This
                      test compared the units of PCS billed to the number of days in the PCS
                      date range on which the beneficiary was not institutionalized to
                      determine which claims had more than 24 hours of PCS billed per day.
                      As the example illustrated in Figure 5 shows, a beneficiary had a PCS
                      claim with the date range from October 1 through October 8. He also
                      had an institutional stay from October 4 through October 10. He was
                      home only on 4 days in the PCS date range—October 1 through
                      October 4 (the dates of admission and discharge are counted as at-home
                      days). Therefore a maximum of 96 hours of PCS were possible during
                      those 4 days. If more than 96 hours of services were billed, the
                      beneficiary would have had to receive some of those services on days
                      when he was institutionalized. We would have counted only the hours
                      in excess of 96 hours in error. However, if fewer than 96 hours were
                      billed, we had no basis to question the PCS claim, even if PCS were
                      provided while the beneficiary was institutionalized. It is possible that
                      some or all of these PCS claims were paid in error.




    OEI-07-06-00620   PAY M E N T S M A D E   IN   ERROR   FOR   P E R S O N A L C A R E S E R V I C E S D U R I N G I N S T I T U T I O N A L S TAY S   17
                                                                                                                             Report Template Update: 06-30-07




   A     P    P E N D           I X           ~               A


Medicaid Matches in North Carolina and New Mexico

Figure 1: Example of Overlapping Claims in North Carolina and New Mexico

 Oct. 1         Oct. 2       Oct. 3         Oct. 4  Oct. 5                           Oct. 6               Oct. 7               Oct. 8               Oct. 9           Oct. 10
                                            PCS date range
                                                                                 PCS paid inappropriately
                                                                                          Institutional date range

Figure 2: Example of Overlapping Claims in Minnesota, Texas, and Washington

 Oct. 1        Oct. 2       Oct. 3          Oct. 4  Oct. 5                          Oct. 6               Oct. 7               Oct. 8               Oct. 9            Oct. 10
                                            PCS date range
         PCS could be paid appropriately                                PCS could not be paid appropriately
                                                                                         Institutional date range

Medicaid Matches in Minnesota

Figure 3: Example of Timecard Review

 Oct. 1         Oct. 2       Oct. 3          Oct. 4   Oct. 5     Oct. 6                                   Oct. 7               Oct. 8               Oct. 9           Oct. 10
                                                   PCS date range
                                                                  PCS paid inappropriately
                                                                                          Institutional date range

Medicaid Matches in Texas and Washington; Medicare Matches in All Five States
Figure 4: Example of Entire PCS Date Range Contained Within Institutional Stay

  Oct. 1        Oct. 2       Oct. 3          Oct. 4   Oct. 5   Oct. 6                                    Oct. 7               Oct. 8               Oct. 9            Oct. 10
                                                  PCS date range
                                          PCS could not be paid appropriately
                                                              Institutional date range

Figure 5: Example of More Than 24 Hours of PCS Billed on NonInstitutional Days

 Oct. 1        Oct. 2       Oct. 3          Oct. 4                 Oct. 5           Oct. 6               Oct. 7               Oct. 8               Oct. 9            Oct. 10
       4 noninsititutional days - max. 96 hours                       PCS date range
         PCS could be paid appropriately                                PCS could not be paid appropriately
                                                                                         Institutional date range




        OEI-07-06-00620          PAY M E N T S M A D E   IN   ERROR    FOR   P E R S O N A L C A R E S E R V I C E S D U R I N G I N S T I T U T I O N A L S TAY S         18
                                                                                                              Report Template Update: 06-30-07




A P P E N D        I X          ~               A


                   Calculation of Payments
                   North Carolina, New Mexico, Texas, and Washington. For these four
                   States, the calculations of payments made in error for PCS provided
                   during both Medicaid- and Medicare-paid institutional stays were the
                   same. For PCS claims during which the beneficiary was
                   institutionalized for the entire date range, the entire amount paid was
                   counted in error. For these claims, the beneficiary was institutionalized
                   and not at home at any point during the date range; no PCS should
                   have been paid. For PCS claims in which the provider billed for more
                   than 24 hours of PCS per noninstitutional day, we calculated the
                   maximum possible hours of PCS that each beneficiary could have
                   received while not institutionalized (e.g., 4 noninstitutional days
                   x 24 hours per day = 96 possible hours of PCS). Only the portion of the
                   payment associated with the hours in excess of the maximum possible
                   hours was counted in error. Washington paid one type of PCS in units
                   of 1 day. For these claims, if the beneficiary was institutionalized for
                   part of the date range, we counted only days on which the beneficiary
                   was institutionalized in determining the amount paid in error.

                   Minnesota. We employed different methods to identify PCS claims paid
                   in error during Medicaid- and Medicare-paid institutional stays in
                   Minnesota. Minnesota was the only one of the five States that provided
                   timecards for the overlapping PCS claims. For the PCS claims that
                   matched Medicaid-paid institutional stays, we reviewed the timecards
                   to determine how many units of services were provided on days on
                   which beneficiaries were in institutions. We then multiplied those units
                   by the unit rate to determine the amount paid in error. Payment errors
                   for PCS claims that matched Medicare-paid institutional stays were
                   calculated similarly to those in the other four States as described above.




 OEI-07-06-00620   PAY M E N T S M A D E   IN   ERROR   FOR   P E R S O N A L C A R E S E R V I C E S D U R I N G I N S T I T U T I O N A L S TAY S   19
                                                                                                                                          Report Template Update: 06-30-07




            Δ   A
             A P P
                             PE PN ED NI XD I AX ~ B


                                               Personal Care Services: Total Beneficiaries, Paid Claims,
                                               Overlapping Claims, and Claims Paid in Error

First Quarter of Fiscal Year 2006                                                     Minnesota                New Mexico                 North Carolina                           Texas    Washington
Number of beneficiaries enrolled in Medicaid                                                266,347                    428,884                      1,600,120                4,431,491           1,028,330

Number of beneficiaries receiving personal care services (PCS)                                11,674                     11,130                          75,217                   141,947          53,694

     Number of beneficiaries who received PCS and Medicaid
                                                                                                   636                         951                       10,446                    14,393           1,926
     institutional services

     Number of beneficiaries who received PCS and Medicare
                                                                                                   163                         637                         2,895                    7,473           2,450
     institutional services

Number of paid PCS claims                                                                   160,979                    242,808                      3,080,667                1,133,608            220,574

Number of PCS claims for beneficiaries who also received
                                                                                              10,161                     24,229                        396,480                    154,794          12,559
institutional services

Expenditures for PCS claims for beneficiaries who also received
                                                                                      $4,230,738                $16,471,359                     $24,500,100              $39,227,964         $11,445,130
institutional services

Medicaid
PCS claims that overlap with the dates of Medicaid-paid institutional
                                                                                                     41                        390                            345                  14,721           1,235
stays

     PCS claims for services provided during an institutional stay
                                                                                                     24                        390                            345                    851               60
     paid in error

                      Erroneous payments identified through claims
                                                                                                   N/A                         390                            345                    N/A              N/A
                      review

                      Erroneous payments identfied through
                                                                                                     24                       N/A                             N/A                    N/A              N/A
                      timecard review

                      Erroneous payments identifed through
                                                                                                   N/A                        N/A                             N/A                    851               60
                      reasonableness tests

                                      Claims in which the
                                      beneficiary was
                                                                                                   N/A                        N/A                             N/A                    826               55
                                      institutionalized every day in
                                      PCS range

                                      Claims in which more than
                                      24 hours of services/day were                                N/A                        N/A                             N/A                     25                5
                                      billed
Medicare
PCS claims that overlap with the dates of Medicare-paid institutional
                                                                                                     79                        162                         1,231                    9,052           1,801
stays

     PCS claims for services provided during institutional stays
                                                                                                     10                          61                        1,231                     783              166
     paid in error, identified through reasonableness tests

                      Claims in which the beneficiary was
                                                                                                       7                         60                        1,025                     765              161
                      institutionalized every day in PCS range

                      Claims in which more than 24 hours of
                                                                                                       3                           1                          206                     18                5
                      services/day were billed

Source: Office of Inspector General analysis of claims data, 2008.
                    OEI-07-06-00620            PAY M E N T S M A D E   IN   ERROR   FOR   P E R S O N A L C A R E S E R V I C E S D U R I N G I N S T I T U T I O N A L S TAY S             20
                                                                                                             Report Template Update: 06-30-07




Δ   A P P E N D I X                              ~           C           


                  Agency Comments




OEI-07-06-00620   PAY M E N T S M A D E   IN   ERROR   FOR   P E R S O N A L C A R E S E R V I C E S D U R I N G I N S T I T U T I O N A L S TAY S   21 

                                                                                                                 Report Template Update: 06-30-07




A   P   P E N D       I X          ~               C       





    OEI-07-06-00620   PAY M E N T S M A D E   IN   ERROR   FOR   P E R S O N A L C A R E S E R V I C E S D U R I N G I N S T I T U T I O N A L S TAY S   22
                                                                                                                 Report Template Update: 06-30-07




A   P   P E N D       I X          ~               C       





    OEI-07-06-00620   PAY M E N T S M A D E   IN   ERROR   FOR   P E R S O N A L C A R E S E R V I C E S D U R I N G I N S T I T U T I O N A L S TAY S   23
                                                                                                             Report Template Update: 06-30-07




Δ   A C K N O W L E D G M E N T S                                                                        


                  This report was prepared under the direction of Brian T. Pattison,
                  Regional Inspector General for Evaluation and Inspections in the
                  Kansas City regional office.

                  Deborah Walden served as the team leader for this study. Other
                  principal Office of Evaluation and Inspections staff from the Kansas
                  City regional office who contributed to the report include Emily
                  Meissen, Elander Phillips, and Michala Walker; other central office staff
                  who contributed include Kevin Manley and Scott Horning.




OEI-07-06-00620   PAY M E N T S M A D E   IN   ERROR   FOR   P E R S O N A L C A R E S E R V I C E S D U R I N G I N S T I T U T I O N A L S TAY S   24
